AUDIT OF OFFICE ON VIOLENCE AGAINST WOMEN GRANTS

   AWARDED TO THE MONTANA COALITION AGAINST

          DOMESTIC AND SEXUAL VIOLENCE

                 HELENA, MONTANA




              U.S. Department of Justice

            Office of the Inspector General

                     Audit Division


          Audit Report Number GR-60-11-001

                     October 2010

AUDIT OF OFFICE ON VIOLENCE AGAINST WOMEN GRANTS

   AWARDED TO THE MONTANA COALITION AGAINST

          DOMESTIC AND SEXUAL VIOLENCE

                 HELENA, MONTANA


                          EXECUTIVE SUMMARY



      The Office of the Inspector General, Audit Division, has completed an
audit of five grants totaling $1,932,398, awarded to the Montana Coalition
Against Domestic and Sexual Violence (MCADSV) by the Office on Violence
Against Women (OVW), shown in Table 1.

  TABLE 1.	 GRANTS AWARDED TO THE MONTANA COALITION AGAINST 

            DOMESTIC AND SEXUAL VIOLENCE

                        AWARD       PROJECT    PROJECT     AWARD
  AWARD NUMBER           DATE     START DATE  END DATE    AMOUNT
  2004-MU-AX-0048      08/16/2004  10/01/2004 09/30/2005  $ 148,746
  2004-MU-AX-0048
  Supplement 1         09/27/2005  10/01/2004 09/30/2006     170,914
  2004-MU-AX-0048
  Supplement 2         09/12/2006  10/01/2004 09/30/2007     166,082
  2006-FW-AX-K010      09/19/2006  10/01/2006 10/31/2008     200,000
  2006-FW-AX-K010
  Supplement 1         09/23/2008  10/01/2006 09/30/2009     550,000
  2007-MU-AX-0004      09/13/2007  09/01/2007 08/31/2008     166,090
  2007-MU-AX-0004
  Supplement 1         09/23/2008  09/01/2007 08/31/2009     165,930
  2007-MU-AX-0004
  Supplement 2         09/25/2009  09/01/2007 08/31/2010     204,035
  2008-TA-AX-0022      09/24/2008  09/01/2008 09/30/2009       4,351
  2009-EU-S6-0027      06/29/2009  05/01/2009 04/30/2011     156,250
  Total:                                                 $1,932,398
  Source: The Office of Justice Programs’ Grant Management System

      The purpose of these awards is to provide recipients with the
opportunity to develop and strengthen effective responses to violence
against women.

       OVW provides national leadership in developing the nation's capacity
to reduce violence against women through the implementation of the
Violence Against Women Act. Created in 1995, OVW administers financial
and technical assistance to communities across the country that are
developing programs, policies, and practices aimed at ending domestic
violence, dating violence, sexual assault, and stalking. By forging state,
local, and tribal partnerships among police, prosecutors, victim advocates,
health care providers, faith leaders, and others, OVW grant programs help
provide victims with the protection and services they need to pursue safe
and healthy lives, while simultaneously enabling communities to hold
offenders accountable for their violence.

      OVW provides funding under two formula grant programs and 17
discretionary grant programs to aid communities across the country that are
developing programs aimed at ending domestic violence and sexual assault.
MCADSV receives funding from the following four OVW programs:

  •	 State Coalitions Program. The State Sexual Assault and Domestic
     Violence Coalitions Program plays a critical role in the implementation
     of the VAWA and serves as a collective voice to end violence against
     women through collaboration with federal, state, and local
     organizations and by providing direct support to member rape crisis
     centers through funding, training, technical assistance, public
     awareness, and public policy advocacy.

  •	 Disability Grant Program. The Education, Training, and Enhanced
     Services to End Violence Against and Abuse of Women with Disabilities
     Grant Program, created by VAWA in 2000, recognizes the need to
     focus on domestic violence, dating violence, stalking, and sexual
     assault against individuals with disabilities. The goal is to build the
     capacity of jurisdictions to address such violence against individuals
     with disabilities through the creation of multi-disciplinary teams.
     Recipients provide training, consultation and information on domestic
     violence, dating violence, stalking and sexual assault against
     individuals with disabilities and enhance direct services to such
     individuals.

  •	 Technical Assistance Program. The Technical Assistance Program
     provides OVW grantees with the training, expertise, and problem-
     solving strategies they need to meet the challenges of addressing
     domestic violence, sexual assault, dating violence, and stalking. The
     projects offer educational opportunities, conferences, peer-to-peer
     consultation, site visits, and tailored assistance that allows grantees
     and others to learn from experts and one another about how to
     effectively respond to crimes of violence against women.

  •	 American Recovery and Reinvestment Act. The stated purposes of
     the American Recovery and Reinvestment Act of 2009 are to create
     jobs and promote economic recovery; to assist those most impacted by
     the recession; and to provide investments needed to increase economic
     efficiency. The Recovery Act Grants to State Sexual Assault and

                                      ii
     Domestic Violence Coalitions Program meets the goals of the Recovery
     Act through the technical assistance they provide to member programs.

       MCADSV, located in Helena, Montana, is a statewide coalition of
individuals and organizations working together to end domestic and sexual
violence through advocacy, public education, public policy, and program
development. Today, the organization’s mission is to support and facilitate
networking among the member organizations while advocating for social
change in Montana. MCADSV represents over 50 programs across Montana
that provide direct services to victims and survivors of domestic and sexual
violence. The membership also includes other nonprofit and government
organizations working to address issues related to domestic and sexual
violence in a way that holds offenders accountable and provides support for
the people they victimize.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the awards, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) the internal control environment; (2) grant
drawdowns; (3) grant expenditures, including personnel costs; (4) budget
management and control; (5) matching costs; (6) program income;
(7) grant reporting; (8) accomplishment of grant requirements and
objectives; (9) monitoring contractors; and (10) accountable property. We
determined that indirect costs were not applicable to these grants.

      As of May 17, 2010, MCADSV had been reimbursed $1,517,134 of the
$1,932,398 awarded under the five grants in our audit. We performed
detailed transaction testing of $215,671, or approximately 14 percent of the
$1,531,481 that had been expended to date. We examined MCADSV’s
accounting records, budget documents, financial and progress reports, and
operating policies and procedures and found that MCADSV:

  •	 made drawdowns in excess of cumulative expenditures;

  •	 paid $6,557 in unallowable payroll costs;

  •	 paid $766 in unallowable fringe costs;

  •	 incurred expenditures totaling $52,449 in unapproved budget

     categories; 


  •	 did not record or report program income;

                                     iii
  •	 did not consistently submit accurate Financial Status Reports;

  •	 did not consistently submit timely or accurate Progress Reports; and

  •	 has not formed a plan for project sustainability should federal funding
     expire.

    Our report contains eight recommendations which are discussed in detail
in the Findings and Recommendations section of the report. Our audit
objectives, scope, and methodology appear in Appendix I of the report.




                                     iv
                                TABLE OF CONTENTS



INTRODUCTION ............................................................................... 1

 Background .......................................................................................2

   Montana Coalition Against Domestic and Sexual Violence .....................3

   Program Background .......................................................................3

 Our Audit Approach ............................................................................4

FINDINGS AND RECOMMENDATIONS................................................ 5

 Internal Control Environment ..............................................................5

   Single Audit ....................................................................................5

 Drawdowns .......................................................................................6

 Grant Expenditures ............................................................................7

   Direct Costs ....................................................................................7

   Personnel Costs...............................................................................7

   Contractor Costs .............................................................................7

 Budget Management and Control .........................................................8

 Matching Costs ..................................................................................8

 Program Income ................................................................................9

 Grant Reporting .................................................................................9

   Financial Status Reports ...................................................................9

   Categorical Assistance Progress Reports........................................... 10

 Accomplishment of Grant Requirements and Objectives ........................ 12

   American Reinvestment and Recovery Act ........................................ 12

   Program Sustainability ................................................................... 12

   Accomplishment of Grant Objectives ................................................ 13

 Monitoring Contractors ..................................................................... 14

 Accountable Property........................................................................ 15

 Conclusion ...................................................................................... 15

 Recommendations............................................................................ 16

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ............... 17

APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS............ 19

APPENDIX III - DRAWDOWNS VERSUS ACCOUNTING RECORDS..... 20

APPENDIX IV - DETAILED UNALLOWABLE COSTS ........................... 22

APPENDIX V - GRANTEE RESPONSE TO THE DRAFT REPORT ........... 23

APPENDIX VI - OVW RESPONSE TO THE DRAFT REPORT ................ 27

APPENDIX VII - OFFICE OF THE INSPECTOR GENERAL, AUDIT

                    DIVISION, SUMMARY OF ACTIONS ACTIONS
                    NECESSARY TO CLOSE REPORT............................. 30

AUDIT OF OFFICE ON VIOLENCE AGAINST WOMEN GRANTS

   AWARDED TO THE MONTANA COALITION AGAINST

          DOMESTIC AND SEXUAL VIOLENCE

                 HELENA, MONTANA


                          INTRODUCTION



       The Department of Justice (DOJ), Office of the Inspector General,
Audit Division, has completed an audit of Grant Numbers 2004-MU-AX-0048,
2006-FW-AX-K010, 2007-MU-AX-0004, 2008-TA-AX-0022 and
2009-EU-S6-0027 totaling $1,932,398, awarded to the Montana Coalition
Against Domestic and Sexual Violence (MCADSV) by the Office on Violence
Against Women (OVW). Grant Numbers 2004-MU-AX-0048 and
2007-MU-AX-0004, each with two additional supplements, were awarded
under the Grants to State Sexual Assault and Domestic Violence Coalitions
Program; Grant Number 2006-FW-AX-K010, with one additional supplement,
was awarded under the Education and Technical Assistance to End Violence
Against Women with Disabilities Discretionary Grant Program; Grant Number
2008-TA-AX-0022 was awarded under the Technical Assistance Conference
Support Program; and, Grant Number 2009-EU-S6-0027 was awarded under
the American Recovery and Reinvestment Act Grants to State Sexual Assault
and Domestic Violence Coalitions Programs. The purpose of these awards is
to provide recipients with the opportunity to develop and strengthen
effective responses to violence against women. The award dates and
individual amounts are shown in Table 1.
  TABLE 1. GRANTS AWARDED TO THE MONTANA COALITION AGAINST
            DOMESTIC AND SEXUAL VIOLENCE
                         AWARD      PROJECT     PROJECT    AWARD
   AWARD NUMBER           DATE     START DATE  END DATE    AMOUNT
   2004-MU-AX-0048      08/16/2004  10/01/2004 09/30/2005   $148,746
   2004-MU-AX-0048
   Supplement 1         09/27/2005  10/01/2004 09/30/2006    170,914
   2004-MU-AX-0048
   Supplement 2         09/12/2006  10/01/2004 09/30/2007    166,082
   2006-FW-AX-K010      09/19/2006  10/01/2006 10/31/2008    200,000
   2006-FW-AX-K010
   Supplement 1         09/23/2008  10/01/2006 09/30/2009    550,000
   2007-MU-AX-0004      09/13/2007  09/01/2007 08/31/2008    166,090
   2007-MU-AX-0004
   Supplement 1         09/23/2008  09/01/2007 08/31/2009    165,930
   2007-MU-AX-0004
   Supplement 2         09/25/2009  09/01/2007 08/31/2010    204,035
   2008-TA-AX-0022      09/24/2008  09/01/2008 09/30/2009      4,351
   2009-EU-S6-0027      06/29/2009  05/01/2009 04/30/2011    156,250
   Total:                                                 $1,932,398
  Source: Office of Justice Programs’ Grant Management System

      The purpose of this grant audit was to determine whether
reimbursements claimed for costs under the grants were allowable,
supported, and in accordance with applicable laws, regulations, guidelines,
and terms and conditions of the awards and to determine program
performance and accomplishments. The objective of our audit was to review
performance in the following areas: (1) the internal control environment;
(2) grant drawdowns; (3) grant expenditures, including personnel costs;
(4) budget management and control; (5) matching costs; (6) program
income; (7) grant reporting; (8) accomplishment of grant requirements and
objectives; (9) monitoring contractors; and (10) accountable property. We
determined that indirect costs were not applicable to these grants.

Background

       OVW provides national leadership in developing the nation's capacity
to reduce violence against women through the implementation of the
Violence Against Women Act. Created in 1995, OVW administers financial
and technical assistance to communities across the country that are
developing programs, policies, and practices aimed at ending domestic
violence, dating violence, sexual assault, and stalking. By forging state,
local, and tribal partnerships among police, prosecutors, victim advocates,
health care providers, faith leaders, and others, OVW grant programs help
provide victims with the protection and services they need to pursue safe
and healthy lives, while simultaneously enabling communities to hold
offenders accountable for their violence.


                                         2

Montana Coalition Against Domestic and Sexual Violence

       MCADSV, located in Helena, Montana, is a statewide coalition of
individuals and organizations working together to end domestic and sexual
violence through advocacy, public education, public policy, and program
development. Today, the organization’s mission is to support and facilitate
networking among the member organizations while advocating for social
change in Montana. MCADSV represents over 50 programs across Montana
that provide direct services to victims and survivors of domestic and sexual
violence. The membership also includes other nonprofit and government
organizations working to address issues related to domestic and sexual
violence in a way that holds offenders accountable and provides support for
the people they victimize.

Program Background

      OVW provides funding under two formula grant programs and 17
discretionary grant programs to aid communities across the country that are
developing programs aimed at ending domestic violence and sexual assault.
MCADSV receives funding from the following four OVW programs:

  •	 State Coalitions Program. The State Sexual Assault and Domestic
     Violence Coalitions Program plays a critical role in the implementation
     of the VAWA and serves as a collective voice to end violence against
     women through collaboration with federal, state, and local
     organizations by providing direct support to member rape crisis
     centers through funding, training, technical assistance, public
     awareness, and public policy advocacy.

  •	 Disability Grant Program. The Education, Training, and Enhanced
     Services to End Violence Against and Abuse of Women with Disabilities
     Grant Program, created by VAWA in 2000, recognizes the need to
     focus on domestic violence, dating violence, stalking, and sexual
     assault against individuals with disabilities. The goal is to build the
     capacity of jurisdictions to address such violence against individuals
     with disabilities through the creation of multi-disciplinary teams.
     Grantees provide training, consultation and information on domestic
     violence, dating violence, stalking and sexual assault against
     individuals with disabilities and enhance direct services to such
     individuals.

  •	 Technical Assistance Program. The Technical Assistance Program
     provides OVW grantees with the training, expertise, and problem­


                                      3

     solving strategies they need to meet the challenges of addressing
     domestic violence, sexual assault, dating violence, and stalking. The
     projects offer educational opportunities, conferences, peer-to-peer
     consultation, site visits, and tailored assistance that allows grantees
     and others to learn from experts and one another about how to
     effectively respond to crimes of violence against women.

  •	 American Recovery and Reinvestment Act. The stated purposes of
     the American Recovery and Reinvestment Act of 2009 (ARRA) are to
     create jobs and promote economic recovery; to assist those most
     impacted by the recession; and to provide investments needed to
     increase economic efficiency. The Recovery Act Grants to State Sexual
     Assault and Domestic Violence Coalitions Program meets the goals of
     the Recovery Act through the technical assistance they provide to
     member programs.

Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the Office of Justice Programs Financial
Guide and the award documents.

      In conducting our audit, we performed sample testing in five areas —
drawdowns; grant expenditures, payroll, fringe benefits, and match
requirements. In addition, we reviewed the timeliness and accuracy of
Financial Status Reports (FSRs) and Progress Reports, evaluated
performance to grant objectives, evaluated the grantee’s monitoring of
subrecipients, and reviewed the internal controls of the financial
management system.

     Our audit objectives, scope and methodology are discussed in
Appendix I.




                                      4

               FINDINGS AND RECOMMENDATIONS


      We found that MCADSV’s financial management system does not
      have an adequate system of internal controls to ensure accurate
      financial reporting to OVW. We also found that grant
      expenditures listed in the accounting records, including payroll
      costs, fringe costs, and unallowable budget transfers, were not
      consistently and accurately supported, resulting in unallowable
      costs totaling $59,771.


Internal Control Environment

       We reviewed the MCADSV financial management system, policies and
procedures, and single audit reports to assess the risk of noncompliance to
laws, regulations, guidelines, and the terms and conditions of the grants.
We also interviewed the executive director, administrative director/financial
manager, and fiscal coordinator, and we observed accounting activities to
further assess risk. We identified previous single audit findings of
deficiencies related to grant records that lacked adequate detail, and some
grant-related costs that were inaccurately recorded.

Single Audit

       Pursuant to the Office of Management and Budget (OMB) Circular
A-133, MCADSV is required to perform a Single Audit annually. We reviewed
all Single Audits from 2003-2008 and found that the 2007-2008 audits noted
the following issues:

   •	 Financial Statements do not accurately reflect the balances of
      accounts; a number of adjusting journal entries are included to correct
      account balances.

   •	 The organization did not maintain accurate, complete, and current
      records with regards to cash by grant.

      We also found that MCADSV accounting records did not consistently
support the financial reports submitted to OVW. Specifically, we identified
numerous drawdowns and FSRs which were not supported by the grantee’s
accounting records. MCADSV officials noted that the likely cause for these
discrepancies was adjusting journal entries which were made after the yearly
Single Audits. We expand on this issue in the Drawdowns and Grant
Reporting sections of this report.


                                      5

       With regard to the related finding concerning the maintenance of
accurate, complete, and current records of cash by grant, our analysis of
drawdowns and FSR accuracy confirmed that accounting records were not
consistently accurate. In response to the 2008 Single Audit, MCADSV
officials noted that additional accounting staff had been hired to help remedy
the situation, and we did see an improvement in more recent awards.
Additionally, in June of 2010, MCADSV moved to an accrual based
accounting system.

Drawdowns

      According to MCADSV officials, drawdowns are made on a
reimbursement basis approximately once per month. Each month the
Administrative Director reviews the accounting records for each grant to
determine the actual amount expended, and uses that total to make the
drawdown request. To meet minimum cash on hand requirements, the OJP
Financial Guide notes that recipients should time their drawdown requests to
ensure that Federal cash on hand is the minimum needed for
disbursements/reimbursements to be made immediately or within 10 days.

       To determine if grant drawdowns were supported, we compared the
drawdown requests to the accounting records for each grant. We also
compared the total expenditures per the accounting records for each grant
with the total drawdowns for the grant. As shown in Appendix III, we
identified 45 drawdowns that were in excess of cumulative expenditures and
for which the excess grant funds were not expended within the 10 days
immediately following the drawdown.

      MCADSV officials were unable to provide a definitive reason as to why
the accounts appear to have been overdrawn on a relatively consistent
basis, but noted that the most likely explanation may be year-end adjusting
entries made after the A-133 Single Audits. As noted in the Single Audit
section of this report, MCADSV officials did not consistently maintain
accurate accounting records throughout the year and relied on the use of
journal entries to correct the account balances.

       We did note that there seemed to be improvement in recordkeeping
for the American Reinvestment and Recovery Act award, the most recent of
all grants in our audit. However, overdraws on other grants have occurred
as recently as April of 2010. The OJP Financial Guide requires that recipients
maintain an adequate system of accounting and internal controls in order to
meet the prescribed requirements for periodic financial reporting of
operations, and to provide financial data for planning, control, measurement,


                                      6

and evaluation of direct and indirect costs. MCADSV should have internal
control procedures in place to prevent erroneous recordkeeping which may
lead to inaccurate drawdowns.

Grant Expenditures

       The OJP Financial Guide requires that costs claimed under the grants
be reasonable, allocable, necessary to the project, and in compliance with
funding statute requirements. To determine compliance with these criteria,
and to verify that costs claimed were adequately supported, we performed
testing of expenditures related to direct costs, personnel costs, and fringe
costs.

Direct Costs

       We selected 102 direct cost transactions totaling $215,671 (14 percent
of total grant expenditures) for review. Our testing included expenditures
from all budget categories approved by OVW: Personnel, Fringe, Travel,
Equipment, Supplies, Consultants/Contractual, and Other. We found that
the expenditures tested were generally allowable and adequately supported.

Personnel Costs

      To verify the reasonableness, accuracy, and completeness of salary
and fringe benefit transactions charged to the grants, we conducted payroll
testing by judgmentally selecting two non-consecutive pay periods which
included grant-funded personnel expenditures. We compared the positions
paid to those which had been approved by OVW during the application and
award process, and identified a total of $6,557 in unallowable payroll costs
and an additional $766 in unallowable fringe costs related to positions which
were being paid using grant funds, but which had not been budgeted. These
items are described in Appendix IV.

Contractor Costs

      We reviewed contractor expenses to determine compliance with OVW
and OJP requirements. In each award application, MCADSV included a
budget narrative for OVW approval which identified the contractors to be
paid using grant funds, and the OJP Financial Guide requires that a Grant
Adjustment Notice be submitted should any changes be made to these
budgets at a later date. To determine allowability for contracted expenses,
we reviewed MCADSV budget narratives for each award to identify a list of
approved contractors. We then compared this list to the accounting records
for the grants to identify any unapproved contractors being paid with federal


                                      7

funds. Based on our review, the contractors being paid by MCADSV have
been approved and the costs are generally allowable.

Budget Management and Control

      According to the OJP Financial Guide, a grantee may transfer funds
between approved budget categories without OJP approval if the total
transfers are 10 percent or less than the award amount. Using the
accounting records provided to us by MCADSV officials, we compared the
amounts charged to each budget category per the accounting records to the
OVW approved budget for each award. In total, we identified $52,449 in
costs which had been expended over the 10 percent threshold allowable by
OVW, as shown in Table 2 below.

 TABLE 2.     UNALLOWABLE CATEGORICAL SPENDING IN 2004-MU-AX-0048
                                 AMOUNT                    AMOUNT
     BUDGET CATEGORY             APPROVED   AMOUNT SPENT OVERBUDGET 1
  Personnel                        $159,688   $141,729           -
  Fringe Benefits                  $ 49,496   $ 36,159           -
  Travel                           $ 29,544   $105,972       $ 76,428
  Equipment                        $ 9,388    $ 13,065       $ 3,677
  Supplies                         $ 5,447    $ 21,249       $ 15,801
  Contractual                      $191,583   $121,855           -
  Other                            $ 40,597   $ 47,386       $ 6,789
  Total Amount Overbudget:                                   $ 102,696
  Allowable 10%:                                            ($ 48,574)
  Direct expenditures exceeding budget                      ($ 1,673)
  Total Amount Questioned:                                   $ 52,449
 Source: Office of Justice Programs’ Grant Management System; MCADSV accounting

         records.


Matching Costs

      We determined that Grant Number 2004-MU-AX-0048 required a
match from MCADSV. We obtained documentation from OJP detailing the
amount required and requested all supporting documentation from MCADSV
to verify adherence to the requirement. We also judgmentally selected 10
transactions from the match general ledgers to test for expenditure
allowability. We determined that the matching costs were generally
appropriate and allowable.




     1
         Throughout this report, differences in the total amounts are due to rounding.


                                             8

Program Income

       Our interviews with grantee officials indicated that MCADSV generates
minimal program income from conference registration fees. Officials
indicated that the fees are received less than 20 times per year, and that the
income is used to offset expenses related to the conference for which the
registration fee was paid. However, we were unable to locate corresponding
deposits in the accounting records provided. To ensure compliance with OJP
Financial Guide requirements for discretionary awards, we recommend that
MCADSV establish and maintain program accounts which will enable, on an
individual basis, separate identification and accounting for the receipt and
disposition of all funds, including program income.

Grant Reporting

      We reviewed the FSRs and the Categorical Assistance Progress Reports
required for all five awards, and the 1512(c) reports applicable only to the
American Reinvestment and Recovery Act award. We found that FSRs were
not always submitted accurately, and that Categorical Assistance Progress
Reports were not always timely or accurate.

Financial Status Reports

      According to the OJP Financial Guide, MCADSV is required to submit
quarterly FSRs for the life of all grants. Prior to October 1, 2009, the OJP
Financial Guide required that reports be submitted within 45 days of the end
of each calendar quarter, or within 90 days for the final FSR. As of
October 1, 2009, OJP requires that quarterly FSRs be submitted within 30
days of the end of the calendar quarter.

      We reviewed the four most recent FSRs submitted for all grants in our
audit and found that FSRs were generally submitted timely. We noted that
MCADSV was 10 days late in filing the final FSR for grant number
2008-TA-AX-0022; however, the FSR, which had been drafted within the
acceptable time period, included a note from an OJP point of contact
indicating that OJP had assisted MCADSV in filing the final report. The only
other instance in which we identified an FSR as having been submitted late
occurred in June of 2007. As the late submissions are not consistently
recurring issues, we do not consider them to be material.

      We also reviewed the four most recent FSRs for accuracy and found
that 12 out of the 20 most recent reports were cumulatively inaccurate by at
least $500, as shown in Table 3.



                                      9

   TABLE 3. FINANCIAL STATUS REPORT ACCURACY
                                           CUMULATIVE
                                            EXPENSES
                               CUMULATIVE      PER
     FSR                      EXPENSES PER ACCOUNTING            CUMULATIVE
     NO.      END DATE             FSR      RECORDS              DIFFERENCE
    2004-MU-AX-0048
    9      12/31/2006            $407,863    $378,909               ($28,955)
    10     03/31/2007            $452,576    $423,693               ($28,883)
    11     06/30/2007            $485,742    $467,436               ($18,306)
    12     09/30/2007 (Final)    $485,742    $487,550                $ 1,808
    2006-FW-AX-K010
    11     06/30/2009            $324,508    $315,534               ($ 8,974)
    12     09/30/2009            $383,427    $379,207               ($ 4,220)
    13     12/31/2009            $453,641    $449,421               ($ 4,220)
    14     03/31/2010            $519,747    $515,528               ($ 4,220)
    2007-MU-AX-0004
    8      06/30/2009            $301,935    $298,704               ($ 3,232)
    9      09/30/2009            $341,021    $340,343               ($   678)
    10     12/31/2009            $377,401    $376,809               ($   592)
    11     03/31/2010            $425,134    $418,939               ($ 6,195)
    2008-TA-AX-0022
    2      12/31/2008               -        -                      -
    3      03/31/2009               -        -                      -
    4      06/30/2009               -                               -

    5      09/30/2009 (Final)     $   4,066        $   2,310        ($ 1,756)
    2009-EU-S6-0027
    1      06/30/2009                 -            -                -
    2      09/30/2009             $ 18,549         $ 18,549         -
    3      12/31/2009             $ 33,425         $ 33,425         -
    4      03/31/2010             $ 51,334         $ 51,334         -
   Source:	 Office of Justice Programs’ Grant Management System; MCADSV accounting
            records.

Categorical Assistance Progress Reports

      According to the OJP Financial Guide, semi-annual Progress Reports
are due on January 30 and July 30 for the life of the grants. We reviewed
the last four reports for Grant Numbers 2004-MU-AX-0048,
2006-FW-AX-K010, and 2007-MU-AX-0004. For awards which had been
made more recently, we reviewed all progress reports which were available
at the time of our audit. This included three progress reports for Grant
Number 2008-TA-AX-0022 and two for Grant Number 2009-EU-S6-0027.
Our review concerning Progress Report timeliness showed that 5 out of the
most recent 17 progress reports were submitted late, as shown in Table 4.



                                          10

   TABLE 4. CATEGORICAL ASSISTANCE PROGRESS REPORT TIMELINESS
    REPORT                                 DATE
      NO.     END DATE     DATE DUE     SUBMITTED     DAYS LATE
    2004-MU-AX-0048
       4     06/30/2006    07/30/2006   11/09/2006            102
       5     12/31/2006    01/30/2007   01/30/2007              0
       6     06/30/2007    07/30/2007   07/30/2007              0
             09/30/2007
       7     (Final)       12/29/2007   06/18/2008            172
    2006-FW-AX-K010
       4     06/30/2008    07/30/2008   07/30/2008              0
       5     12/31/2008    01/30/2009   01/30/2009              0
       6     06/30/2009    07/30/2009   07/30/2009              0
       7     12/31/2009    01/30/2010   02/01/2010              2
    2007-MU-AX-0004
       2     06/30/2008    07/30/2008   08/20/2008              0
       3     12/31/2008    01/30/2009   01/30/2009              0
       4     06/30/2009    07/30/2009   07/30/2009              0
       5     12/31/2009    01/30/2010   02/01/2010              2
    2008-TA-AX-0022
       1     12/31/2008    01/30/2009   01/28/2009              0
       2     06/30/2009    07/30/2009   07/27/2009              0
             12/31/2009
       3     (Final)       03/31/2010   01/26/2010              0
    2009-EU-S6-0027
       1     06/30/2009    07/30/2009   09/02/2009              0
       2     12/30/2009    01/30/2010   02/03/2010              4
   Source:	 Office of Justice Programs’ Grant Management System; MCADSV accounting
            records.

       We also reviewed Progress Reports for the two most recent reporting
periods for each award to determine the accuracy of the statistical
information that had been reported to OVW. MCADSV officials noted that
statistical data is collected from staff on a quarterly basis, and that
management compiles this data in order to submit the semi-annual reports
to OVW. However, the staff submissions provided for review were
incomplete, and therefore did not consistently support what had been
reported to OVW.

       We contacted MCADSV management to determine the reason for the
discrepancies between the records provided and what was recorded on the
final version of the Progress Report submitted to OVW. We were told that
management, after receiving quarterly activity reports from all staff, makes
final alterations to the data in attempt to ensure that staff activities are
reported with the correct award. However, this process is not consistently
documented, resulting in the submission of progress reports which cannot be


                                        11

statistically supported. We recommend that MCADSV implement policy to
ensure that valid and auditable source documentation is available to support
all data collected for each performance measure specified in the program
solicitation as required by the OJP Financial Guide and the Government
Performance and Results Act.

Accomplishment of Grant Requirements and Objectives

      We reviewed the award documentation for all grants in our audit to
determine if there were additional requirements to which MCADSV must
adhere. We also reviewed the award documentation, conducted interviews
with grantee officials, and gathered input from MCADSV member
organizations to determine if MCADSV is meeting the objectives of each
grant program.

American Reinvestment and Recovery Act

      We determined that the ARRA award 2009-EU-S6-0027 requires the
recipient to complete projects or activities which are funded under the
Recovery Act and to report on the use of Recovery Act funds. The reports
are due no later than 10 calendar days after each calendar quarter in which
the recipient receives Recovery Act funds, and information from these
reports is made available to the public. We determined that three reporting
periods for the 1512(c) reports had occurred at the time our audit
commenced; the first was from February 17 - September 30, 2009; the
second from October 1 - December 31, 2009; and the most recent from
January 1 - March 31, 2010. We accessed reporting information for all three
time periods and determined that MCADSV had submitted each
report timely.

Program Sustainability

      Grant Number 2006-FW-AX-K010 requires that MCADSV develop and
implement a realistic plan to sustain project activities beyond seeking
additional funding. A plan for sustainability is critical not only to ensure that
progress made with federal funding would not be lost should that funding
expire, but also to encourage active member participation. Our interviews
with partner organizations indicated that concerns regarding project
sustainability may be a hindrance to active involvement; specifically, that
agencies may be hesitant to invest resources in a program if there are
concerns regarding long term sustainability. However, our interviews with
MCADSV officials revealed that no actual plan for sustainability is in place,
and the only actions that would be taken should federal funding expire would
be a more active pursuit of additional state and foundation funding. We


                                       12

recommend that OVW coordinate with MCADSV to ensure that a
sustainability plan is in place to ensure that progress made with federal
funds would not be lost should that funding expire.

Accomplishment of Grant Objectives

       According to the award documentation, the purpose of the grants
awarded to MCADSV is to provide recipients the opportunity to develop and
strengthen effective responses to violence against women. MCADSV officials
specifically identified the provision of training, technical assistance,
resources, and the ability to offer networking opportunities to member
agencies as primary goals of the awards. The organization also focuses on
providing assistance to criminal justice entities, prosecutors, and mental
health organizations. As detailed below, goals and objectives are further
clarified as they are related to each individual award.

       Grant Numbers 2004-MU-AX-0048 and 2007-MU-AX-0004 were both
funded by the State Coalitions Program, which allows for funds to be used to
coordinate state victim service activities; and to collaborate and coordinate
with federal, state, and local entities engaged in violence against women
activities. MCADSV has addressed these goals through outreach to the
public, the provision of a variety of training events and workshops, including
collaborative efforts with the Montana Department of Justice;
implementation of a statewide media campaign to educate the public on
issues related to domestic violence and sexual assault; and, by providing
resource information through regular publications. Specific victim service
programs are offered through a partnership with the Montana Legal
Services, which provides volunteer services and legal training to member
organizations across the state.

       Funded by OVW’s Technical Assistance Program, Grant Number
2008-TA-AX-0022 offers educational opportunities, conferences, peer-to­
peer consultations, site visits, and tailored assistance that allows OVW
grantees and others to learn from experts and one another about how to
effectively respond to crimes of violence against women. MCADSV utilized
the award primarily to provide support for travel and lodging costs
associated with presentations at the organization’s annual conference, and
to provide scholarships for attendees throughout the state. These are both
types of support which were approved by OVW, and therefore we
determined that MCADSV met the stated goals of the Technical Assistance
Program.

     The American Reinvestment and Recovery Act funded Grant Number
2009-EU-S6-0027, and stresses the creation of new jobs and expansion of


                                      13

technical assistance to members. We determined that MCADSV had met
these goals through the hire of a full time Communications Coordinator who
works with the Executive Director to improve strategic communication and
public awareness of issues related to domestic violence and sexual assault.
Additionally, the organization has increased its ability to offer technical
assistance to members by upgrading its computer system to allow for
webinar based training efforts.

      We were not able to make a reasonable judgment as to whether the
goals and objectives of the Disability Grant Program, Grant Number
2006-FW-AX-K010, have been met. This award revolves around the
Harvesting Hope collaborative, a group which includes MCADSV employees
and partner agencies tasked with the provision of education and technical
assistance for the purpose of providing training, consultation, and
information on domestic violence, stalking, and sexual assault against
women with disabilities. OVW officials connected with this award had met
with MCADSV officials on three separate occasions between February of
2007 and March of 2010, in part due to the grantee’s overall confusion
regarding the purpose and parameters of the grant program. OVW and
MCADSV officials had worked closely to develop a strong framework for the
strategic plan, and in September of 2009 a reworked plan had been finalized
and MCADSV was able to report success in certain areas of the program.
Specifically, they had developed a new training initiative involving Social
Role Valorization, a technique they believe will be a strong tool in addressing
issues unique to victims with disabilities.

      OVW officials made a third visit to MCADSV headquarters in March of
2010, when it was determined that the collaborative would not be able to
complete all initiatives identified in the strategic plan. Records from both
MCADSV and OVW indicate a belief that the collaborative is committed to the
project and demonstrates a willingness to continue, but that the individuals
remaining on the project do not have the resources, time, or capacity to
implement the project as it was envisioned during the strategic planning
phase of the award. Grant Number 2006-FW-AX-K010 represents a
$750,000 investment by OVW, we encourage OVW to continue its increased
oversight of this and all awards received by MCADSV.

Monitoring Contractors

      Between 2004 and 2010, MCADSV used subrecipient contractors to
advance the goals and objectives of the awards. According to the OJP
Financial Guide, direct recipients should ensure that monitoring of
organizations under contract is performed in a manner that will ensure
compliance with their overall financial management requirements and


                                      14

provide reasonable assurance that the subrecipient administered federal
awards in compliance with federal requirements. OMB Circular A-110 further
states that a “system for contract administration shall be maintained to
ensure contractor performance with the terms, conditions and specifications
of the contract. Recipients shall evaluate contractor performance and
document, as appropriate, whether contractors have met the terms,
conditions and specifications of the contract.”

       Our interviews with MCADSV officials revealed that oversight exists on
two levels. Regarding the financial management system, the grantee
conducts yearly reviews of single audits for all partner organizations.
MCADSV’s primary contractors include Montana State University, Billings;
Mental Health America, Montana; and the Montana Legal Services
Association. For partners of this size, a review of single audits is an
adequate review of a contractor’s financial management system. MCADSV
officials also reported that they are in constant communication with their
contracted partners regarding the goals of the grants. Since the
partnerships are collaborative efforts, we believe it is reasonable to conclude
that the regular interaction required to carry out objectives of the
partnerships constitutes performance oversight.

Accountable Property

       We confirmed that MCADSV utilizes the OJP Financial Guide criteria of
cost greater than $5,000 and a useful life of over one year in order to
identify accountable property, and we obtained their official accountable
property list. We physically verified that each piece of property was located
in MCADSV headquarters and that it was identified as having been federally
funded. Over the course of our field work, we did not identify any situation
in which property was used for purposes which were not grant related.

Conclusion

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, terms and
conditions of the grant, and to determine program performance and
accomplishments.

       We found that the grantee did not comply with grant requirements in
several material respects. Specifically, MCADSV made drawdowns which
were not supported by their financial records, used grant funds to pay
positions which had not been approved by OVW, expended funds in
unapproved budget categories, did not accurately record and report program


                                      15

income, did not submit accurate Financial Status Reports or accurate and
timely Progress Reports, and had not created a realistic sustainability plan
when required. Overall, we identified $59,771 in unallowable or
unsupported expenditures.

Recommendations

We recommend that the Office on Violence Against Women:

   1. Ensure that drawdowns are made accurately.

   2. Remedy the $6,557 in unallowable payroll costs.

   3. Remedy the $766 in unallowable fringe costs.

   4. Remedy the $52,449 in unapproved budget transfers.

   5. Accurately record and report program income.

   6. Ensure that Financial Status Reports are accurate.

   7. Ensure that Progress Reports are timely and accurate.

   8. Coordinate with MCADSV to ensure that a realistic sustainability plan is
      in place when required.




                                      16

                                                                APPENDIX I


           OBJECTIVES, SCOPE, AND METHODOLOGY


      The purpose of this grant audit was to determine whether
reimbursements claimed for costs under the grants were allowable,
supported, and in accordance with applicable laws, regulations, guidelines,
and terms and conditions of the awards and to determine program
performance and accomplishments. The objective of our audit was to review
performance in the following areas: (1) the internal control environment;
(2) grant drawdowns; (3) grant expenditures, including personnel costs;
(4) budget management and control; (5) matching costs; (6) program
income; (7) grant reporting; (8) accomplishment of grant requirements and
objectives; (9) monitoring contractors; and (10) accountable property. We
determined that indirect costs were not applicable to these grants.

       Our testing was conducted by judgmentally selecting for analysis a
sample of expenditures from the grants we audited and by performing
reviews of internal controls and procedures. Judgmental sampling design
was applied to obtain broad exposure to numerous facets of the grants
reviewed, such as dollar amounts, expenditure category or risk. This non-
statistical sample design does not allow projection of the test results to all
grant expenditures or internal controls and procedures.

       We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. Our audit concentrated on, but was not limited to the
earliest award start date of October 1, 2004 through May 28, 2010, the date
our field work concluded.

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide and the award
documents.

       In conducting our audit, we employed a judgmental sampling design to
obtain broad exposure to numerous facets of the grants reviewed, such as
dollar amounts or expenditure category. This non-statistical sample design
does not allow projection of the test results to the universes from which the
samples were selected. We reviewed 121 grant expenditures, including
personnel costs, and all 116 drawdowns.




                                       17

                                                            APPENDIX I

       In addition, we reviewed MCADSV’s budget management and control;
evaluated the timeliness and accuracy of Financial Status Reports and
Progress Reports; evaluated performance to grant objectives; evaluated the
grantee’s monitoring of contractors; assessed compliance with the conditions
of the awards, including special requirements applicable only to American
Recovery and Reinvestment Act awards; and reviewed the internal controls
of the current financial management system. However, we did not test the
reliability of the current financial management system as a whole since
reliance on computer based data was not significant to our objectives.




                                    18

                                            APPENDIX II

 SCHEDULE OF DOLLAR-RELATED FINDINGS


        QUESTIONED COSTS            PAGE   AMOUNT
Unallowable Payroll Costs             7      $ 6,557
Unallowable Fringe Costs              7      $   766
Unapproved Budget Transfers           8     $ 52,449
Total Questioned Costs:                     $59,771




                              19

                                                    APPENDIX III

       DRAWDOWNS VERSUS ACCOUNTING RECORDS


                                            CUMULATIVE
                                           EXPENDITURES
    DATE OF       AMOUNT OF   CUMULATIVE        PER
 DRAWDOWN PER     DRAWDOWN    DRAWDOWNS     ACCOUNTING
       OJP          PER OJP     PER OJP      RECORDS      DIFFERENCE
2004-MU-AX-0048
    04/01/2005      $16,703    $ 40,874      $ 39,994     ($   880)
    12/02/2005      $ 9,599    $194,969      $191,641     ($ 3,328)
    01/06/2006      $79,568    $274,537      $215,083     ($59,454)
    07/03/2006      $ 9,709    $284,246      $283,817     ($   429)
    08/01/2006      $21,542    $305,788      $305,359     ($   429)
    11/01/2006      $19,175    $352,234      $351,806     ($   429)
    12/01/2006      $20,116    $372,350      $371,629     ($   722)
    02/01/2007      $12,098    $391,740      $391,006     ($   734)
    03/06/2007      $36,087    $427,827      $414,996     ($12,832)
    04/10/2007      $ 8,095    $435,923      $426,698     ($ 9,225)
    05/03/2007      $14,195    $450,118      $437,688     ($12,430)
    06/14/2007      $18,662    $468,780      $458,288     ($10,492)
    07/06/2007      $11,086    $479,866      $467,436     ($12,430)
2006-FW-AX-K010
    04/10/2007     $ 9,393     $ 42,494      $ 37,287      ($   5,207)
    05/03/2007     $15,346     $ 57,840      $ 51,543      ($   6,297)
    08/07/2007     $12,325     $104,790      $ 98,492      ($   6,297)
    02/07/2008     $11,387     $161,527      $155,074      ($   6,453)
    03/05/2008     $ 6,238     $167,765      $161,312      ($   6,453)
    04/08/2008     $ 3,944     $171,708      $165,527      ($   6,181)
    05/06/2008     $ 3,883     $175,591      $169,409      ($   6,181)
    06/09/2008     $ 3,568     $179,159      $172,977      ($   6,181)
    07/10/2008     $ 2,739     $181,898      $175,981      ($   5,917)
    08/05/2008     $ 4,909     $186,807      $180,902      ($   5,905)
    09/04/2008     $ 3,029     $189,836      $183,931      ($   5,905)
    10/02/2008     $ 5,325     $195,161      $189,253      ($   5,908)
    11/10/2008     $ 9,387     $204,548      $198,645      ($   5,902)
    12/09/2008     $12,512     $217,059      $211,157      ($   5,902)
    02/04/2009     $15,617     $243,804      $237,581      ($   6,223)
    04/03/2009     $11,554     $264,293      $258,792      ($   5,502)
    08/07/2009     $24,485     $346,242      $340,019      ($   6,223)
    01/11/2010     $20,103     $455,652      $449,867      ($   5,785)
    04/02/2010     $15,223     $522,119      $515,528      ($   6,591)




                                 20

                                                                APPENDIX III



2007-MU-AX-0004
    10/15/2007         $ 6,123        $ 6,123           $ 4,820        ($   1,303)
    12/04/2007         $14,409        $ 31,168          $ 25,091       ($   6,077)
    06/09/2008         $14,718        $127,804          $121,795       ($   6,010)
    07/10/2008         $11,578        $139,383          $133,422       ($   5,960)
    08/05/2008         $22,453        $161,836          $155,901       ($   5,935)
    09/04/2008         $   569        $162,406          $156,790       ($   5,615)
    10/08/2008         $ 9,758        $175,737          $170,426       ($   5,310)
    11/10/2008         $ 8,054        $183,790          $178,720       ($   5,070)
    12/09/2008         $11,400        $195,190          $190,201       ($   4,989)
    03/05/2009         $20,941        $245,730          $241,103       ($   4,626)
    04/03/2009         $10,665        $256,395          $252,922       ($   3,473)
    06/04/2009         $16,180        $287,878          $285,084       ($   2,794)
2008-TA-AX-0022
    11/06/2009         $ 1,686         $    4,066       $   3,964      ($    102)
Source: Drawdown history provided by OJP; MCADSV accounting records.




                                           21

                                                                 APPENDIX IV

         DETAILED UNALLOWABLE PAYROLL COSTS

                                                                    AMOUNT
        POSITION                DATES            CHARGED TO       QUESTIONED
Fiscal Coordinator        All payments         2006-FW-AX-K010       $ 425
Fiscal Coordinator        All payments         2007-MU-AX-0004       $2,586
Fiscal Coordinator        All payments         2009-EU-S6-0027       $1,375
Executive Director        All payments         2009-EU-S6-0027       $2,170
Total Questioned Costs:                                              $6,557



          DETAILED UNALLOWABLE FRINGE COSTS



                                                                    AMOUNT
        POSITION                DATES            CHARGED TO       QUESTIONED
Fiscal Coordinator        All payments         2006-FW-AX-K010        $ 46
Fiscal Coordinator        All payments         2007-MU-AX-0004        $281
Fiscal Coordinator        All payments         2009-EU-S6-0027        $148
Executive Director        All payments         2009-EU-S6-0027        $291
Total Questioned Costs:                                               $766




                                         22

                                                                              APPENDIX V


            GRANTEE RESPONSE TO THE DRAFT REPORT




September 13, 2010



David M. Sheeren
Regional Audit Manager
U.S. Department of Justice – Office of the Inspector General
Denver Regional Audit Office
1120 Lincoln, Suite 1500
Denver, CO 80203

Dear Mr. Sheeren:

This correspondence includes the Montana Coalition Against Domestic and Sexual Violence’s
(MCADSV) response to the Office of Inspector General (OIG) recommendations outlined on
page 16 of the draft audit report which we received on August 24th, 2010.

                        MCADSV’s Response to OIG Recommendations

1. Ensure that drawdowns are made accurately.

MCADSV acknowledges that there has been a problem identified with the accuracy of our
drawdown amounts over the entirety of the period being audited. Because we were on a cash
basis of accounting, our year-end adjustments affected our calculations as identified in the audit
report. The year-end adjustments were made during the audit period each year (late
summer/early fall) and once made, these affected the total expenses from the start of the year
which then affected our drawdown amounts. As of June 2010, we have transitioned to a new
accounting system which allows for us to be on an accrual basis of accounting.

2. Remedy the $6,557 in unallowable payroll costs.

MCADSV acknowledges the issue of unallowable payroll costs as indicated by the OIG auditor,
but disputes the issue of whether or not these should be considered unallowable costs.

As noted in the chart in Appendix IV, the payroll costs in question are primarily in regard to our
Fiscal Coordinator position. In July 2009, MCADSV made the decision to rename two staff
positions. Originally, we had in place a Financial Manager position and were hiring for a
Program Manager position. It was decided that we would promote the Financial Manager staff
person at that time and create a new position entitled Administrative Director (which replaced
the Program Manager position). The duties were then redistributed to the new Administrative
Director position and a Fiscal Coordinator position was created. All of the duties of the



                                                23

                                                                               APPENDIX V


Financial Manager position were either maintained by the Administrative Director position or
delegated to the Fiscal Coordinator position.

In all of our Office of Violence Against Women (OVW) grant applications (prior to and during
this period) we had budgeted for funding for the original positions which now were renamed
with new titles but maintained similar duties. Therefore, we believe these were justifiable and
allowable payroll costs. We were unaware that a GAN or other permission was needed in order
to change the title of the positions. We would be happy to provide detailed job descriptions for
the various proposed and finalized positions in order to further explain our justification for how
this was primarily a change in title and not in proposed scope of work or qualifications.

In regard to the unallowable payroll costs for the Executive Director position, we made the
decision to have the Executive Director supervise the Communications Coordinator position
instead of the Administrative Director (formerly Financial Manager). Therefore, we charged the
Executive Director’s time to the ARRA grant. The total personnel costs charged between the
various positions were not above our original proposed personnel costs so we believed we were
within our authority to make this minor change. We were unaware that we needed specific
permission to do so.

3. Remedy the $766 in unallowable fringe costs.

As this issue relates to the unallowable payroll costs, our answer is the same as the explanation in
response #2.

4. Remedy the $52,449 in unapproved budget transfers.

The unapproved budget transfers happened primarily by prior MCADSV management of which
the current Executive Director and Administrative Director (who currently administer and
manage the OVW funds) were not a part of nor were they responsible for the decisions being
made. At this time, we have been unable to locate documentation for whether or not previous
management received approval for the budget transfers due to lack of documentation from that
time period. We do have concerns about how the expenses were accounted for during the time
period in question. For instance, upon review of the travel expenses for that period, a number of
the accounting records indicate the expenses were miscoded to travel when they should have
been assigned to a different budget category. As noted in the report, this is for a grant award that
has been closed since 2007.

5. Accurately record and report program income.

MCADSV acknowledges that we have not been recording and reporting program income
according to the Office of Inspector General’s standards and have identified where we
misunderstood proper procedure. We will remedy this issue for the future. Thus far the program
income in question has been very minimal.

6. Ensure that Financial Status Reports are accurate.




                                                24

                                                                              APPENDIX V

We acknowledge that there have been issues with our Financial Status Reports being accurate for
the same reasons as explained above in response #1.

7.	 Ensure that Progress Reports are timely and accurate.

We acknowledge that there have been times when our Progress Reports have not been submitted
on time. We disagree with a few items of information in Table 4 on page 11 of the draft report.

We dispute that we were late submitting our report on 08/20/2008 (report number 2 from the
2007-MU-AX-0004 award). As explained during the OIG audit process, all of the State
Coalitions received permission from OVW at the time to submit late reports due to the updated
reporting forms not being available. We have documentation of communications from our OVW
Program Manager about this particular reporting period. We would request this information be
changed in the draft report. (Please see attached scanned emails for documentation).

Also, we dispute that we were late with the report on 09/02/2009 (report number 1 from the
2009-EU-S6-0027). We submitted this report within the time period instructed by our OVW
Program Manager. We have correspondence with our OVW Program Manager regarding the
submission of these reports. We would request this information be changed in the draft report.
(Please see attached scanned emails for documentation).

Finally, we want to make a point that although we acknowledge we were late submitting the
reports in January of 2010, we feel it is important to note that the Progress Reports during this
time period were ready to be submitted by the due date, but we were unable to do so based on a
problem with GMS’s version of Adobe. This was not an issue we were made aware of ahead of
time by OVW and we communicated with GMS and OVW staff throughout the period of delay.
We believe the fact that these reports were not submitted on time was not our error, but are
willing to take ultimate responsibility for the 2-3 day delay.

8.	 Coordinate with MCADSV to ensure that a realistic sustainability plan is in placed when
    required.

We dispute this finding as we believe that a sustainability plan is in place, although may not be
in written form at this time. The grant period for this award is not yet complete at the time of
this audit finding and we believe we should be allowed additional time to be able to draft a
written sustainability plan if that is the required expectation of OVW.




                                                25

                                                                           APPENDIX V


As a general response to these findings, we want to assure OVW and OIG that MCADSV has
made significant improvements and changes over the last four years regarding our internal
financial processes and capacity. We have two full-time in-house financial staff positions, we
have contracted with an outside accountant for additional assistance, have recently transitioned
to a new accounting system, and our staff have attended numerous trainings and are prepared to
continue to improve. We hope that OIG and OVW will acknowledge these improvements and be
willing to work towards sensible and reasonable solutions for the problems identified.

Sincerely,



Kelsen Young
Executive Director




                                              26

                                                                       APPENDIX VI


               OVW RESPONSE TO THE DRAFT REPORT


                                                                         September 21, 2010


MEMORANDUM


TO:	                 David Sheeren
                     Regional Audit Manager
                     Denver Regional Audit Office

FROM:	               Susan B. Carbon
                     Director
                     Office on Violence Against Women

                     Rodney Samuels
                     Audit Liaison
                     Office on Violence Against Women

SUBJECT:	            Response to the Draft Audit Report – Office on Violence Against Women
                     Grants to the Montana Coalition Against Domestic and Sexual Violence,
                     Helena, Montana


This memorandum is in response to your correspondence dated August 24, 2010 transmitting
the draft audit report for the Montana Coalition Against Domestic and Sexual Violence
(MCADSV). We consider the subject report resolved and request written acceptance of this
action from your office.

The report contains eight recommendations and $59,771 in unallowable or unsupported
questioned costs. The following is an analysis of the audit recommendation:


   1) Ensure that drawdowns are made accurately.

       OVW agrees with this recommendation. We will coordinate with MCADSV to obtain a
       copy of their policies and procedures to ensure that drawdowns are made accurately.




                                            27

                                                                    APPENDIX VI


2)	 Remedy the $6,557 in unallowable payroll costs.

     OVW agrees with this recommendation. We will coordinate with MCADSV to obtain
     documentation for the $6557 in unallowable payroll costs.

3)	 Remedy the $766 in unallowable fringe costs.

     OVW agrees with this recommendation. We will coordinate with MCADSV to obtain
     documentation for the $766 in unallowable fringe costs.

4)   Remedy the $52,449 in unapproved budget transfers.

     OVW agrees with this recommendation. We will coordinate with MCADSV to obtain
     documentation for the $52,449 in unapproved budget transfers.

5)   Accurately record and report program income.

     OVW agrees with this recommendation. We will coordinate with MCADSV to obtain
     documentation to ensure that program income is recorded and reported accurately.

6)	 Ensure that Financial Status Reports are accurate.

     OVW agrees with this recommendation. We will coordinate with MCADSV to obtain
     documentation to ensure that Financial Status Reports are accurate.

7)	 Ensure that Progress Reports are timely and accurate.

     OVW agrees with this recommendation. We will coordinate with MCADSV to obtain
     documentation to ensure that Progress Reports are timely and accurate.

8)	 Coordinate with MCADSV to ensure that a realistic sustainability plan is in place
    when required.

     OVW agrees with this recommendation. We will coordinate with MCADSV to ensure
     that they have a realistic sustainability plan in place when required.




                                         28

                                                                APPENDIX VI


We appreciate the opportunity to review and comment on the draft report. We will
continue to work with the Montana Coalition Against Domestic and Sexual Violence to
address the recommendations. If you have any questions or require additional
information, please contact Rodney Samuels of my staff at (202) 514-9820.




cc:	   Richard Theis
       Assistance Director
       Audit Liaison Group
       Justice Management Division

       Kotora Padgett
       Accounting Officer
       Office on Violence Against Women

       Kelsen Young
       Executive Director
       Montana Coalition Against Domestic and Sexual Violence

       Kevin Sweeney
       Program Specialist
       Office on Violence Against Women




                                     29

                                                          APPENDIX VII

  OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION

  ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO

                    CLOSE REPORT



1.	   Resolved. In its response to the draft report, MCADSV cited the
      previously used accounting system and the reliance on single audits to
      identify necessary adjustments to be made at year-end as the reason
      for inaccurate accounting records. As noted in the Single Audits
      section of this report, MCADSV had previous single audit findings
      regarding inaccurate recordkeeping. All grantees are required to
      maintain an accounting system that is capable of accurately recording
      grant-related expenditures. In its response to the draft report, OVW
      agreed with our finding and recommendation. This recommendation
      can be closed when we receive a copy of the procedures implemented
      to ensure that accounting records are monitored throughout the year
      to make certain that financial information is current and accurate.

2.	   Resolved. In its response to the draft report, MCADSV disputed that
      these payroll costs should be considered unallowable, but conceded
      that OVW approval had not been obtained before altering or adding
      positions that would be paid using grant funds. The addition of
      positions to an award requires approval by the granting agency, and
      we have reported these costs as unallowable due to the fact that this
      approval had not been obtained. OVW agreed with this finding and
      recommendation. This recommendation can be closed when we
      receive verification that OVW has remedied the $6,557 in unallowable
      payroll costs.

3.	   Resolved. As noted above, MCADSV officials disputed these fringe
      benefit costs as unallowable, but conceded that OVW approval had not
      been obtained before altering or adding positions that would be paid
      using grant funds. OVW agreed with this finding and recommendation.
      This recommendation can be closed when we receive verification that
      OVW has remedied the $766 in unallowable fringe benefit costs.

4.	   Resolved. This recommendation can be closed when we receive
      verification that OVW has remedied the $52,449 in unallowable budget
      transfers.




                                     30

                                                          APPENDIX VII


5.	   Resolved. This recommendation can be closed when we receive a
      copy of the procedures implemented to ensure that program income is
      accurately recorded and reported.

6.	   Resolved. This recommendation can be closed when we receive a
      copy of the procedures implemented to ensure that Financial Status
      Reports are submitted accurately.

7.	   Resolved. In its response to the draft report, MCADSV provided
      documentation from OVW that excluded two Progress Reports from the
      traditional reporting period deadlines. We agree that two late
      submissions for Progress Reports related to awards 2009-EU-S6-0027
      and 2007-MU-AX-0004 were excused by OVW, reducing the total
      number of late submissions from seven to five, and we have adjusted
      this report accordingly. MCADSV officials did not address the issue of
      inaccurate Progress Reports in their response to the draft report. This
      recommendation can be closed when we receive documentation of the
      procedures implemented to ensure that Progress Reports are
      submitted accurately and in a timely manner.

8.	   Resolved. In its response to the draft report, MCADSV claimed that a
      sustainability plan is in place, but is not in written form. During our
      interviews, MCADSV officials noted that, should federal funding expire,
      continuation of the project would rely on additional funding from state
      and foundation grants. The development and implementation of a
      realistic sustainability plan has been a requirement of award
      2006-FW-AX-K010 since 2006, and the 2008 supplement specifically
      requires that the plan include activities that go beyond seeking
      additional funding. OVW agreed with this finding and
      recommendation. This recommendation can be closed when we
      receive a copy of a realistic sustainability plan from MCADSV.




                                     31

